TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Using Soft Notices to Address
                       Reporting Discrepancies Has Merit,
                     but Cost and Benefit Questions Remain



                                       September 9, 2011

                              Reference Number: 2011-30-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


USING SOFT NOTICES TO ADDRESS                          who would not ordinarily be contacted by the
REPORTING DISCREPANCIES HAS                              IRS due to resource constraints. Given this
MERIT, BUT COST AND BENEFIT                            possibility, reliable cost-benefit information may
QUESTIONS REMAIN                                       help alleviate concerns that could be raised
                                                       about why the IRS risks burdening taxpayers
                                                       and incurring the costs of sending soft notices
Highlights                                             that result in little or no tax revenue or impact on
                                                       taxpayer behavior.
Final Report issued on September 9,                    WHAT TIGTA FOUND
2011
                                                       Overall, the IRS did an adequate job planning,
Highlights of Reference Number: 2011-30-091            implementing, and managing the Initiative
to the Internal Revenue Service Commissioners          through its first pilot test. In addition, the
for the Small Business/Self-Employed Division          16 measures the IRS used to evaluate the
and the Wage and Investment Division.                  Initiative were accurately computed as reported
                                                       to its executives in the Fiscal Year 2010 Soft
IMPACT ON TAXPAYERS                                    Notice Report.
Guided by its strategic plan, the Internal             However, TIGTA’s evaluation showed that the
Revenue Service’s (IRS) vision is to make it           taxpayer burden measures are not presenting as
easier for taxpayers to fulfill their civic            complete a picture as they could because they
responsibility to pay taxes by providing them          do not include any information on the time or
with world-class service, taking proactive steps       money spent by the nearly 14,000 taxpayers
to better understand issues from the taxpayer’s        who did not respond to the soft notice. Further,
perspective, and reducing taxpayer burden.             the IRS has yet to commit to taking specific
Consequently, it will be important for the IRS to      actions or establishing a specific date defining
understand and minimize the time and                   how or when it will ensure all costs are
resources taxpayers spend dealing with soft            quantified and used in determining the net
notices to increase the likelihood of achieving its    benefit from using soft notices in the Automated
vision for improving service to taxpayers.             Underreporter Program.

WHY TIGTA DID THE AUDIT                                WHAT TIGTA RECOMMENDED
The overall objective of this review was to            TIGTA recommended that the Director, Campus
determine whether the Soft Notice Initiative (the      Compliance Services, Small Business/
Initiative) in the Automated Underreporter             Self-Employed Division, and the Director,
Program was effectively implemented and                Compliance, Wage and Investment Division,
managed to provide IRS officials with reliable         implement plans to (1) obtain a more complete
information for deciding whether the use of soft       picture of the time and costs taxpayers are
notices should be expanded, modified, or               spending on soft notices and (2) determine the
terminated. Briefly stated, the notices are            net benefit of using soft notices in the
designed to serve as an educational tool,              Automated Underreporter Program as an
encourage self-correction, and improve                 alternative approach for addressing compliance
voluntary compliance. As such, IRS officials           issues.
consider soft notices an alternative approach for
                                                       In their response to the report, IRS officials
addressing compliance issues outside the IRS’s
                                                       agreed with the recommendations and plans to
traditional processes in the Automated
                                                       continue soliciting feedback from taxpayer
Underreporter Program.
                                                       responses and evaluating the net benefits
If determined to be successful, the Initiative         derived from soft notices. Although IRS officials
could result in permanently using soft notices in      agreed with the recommendations, their
the IRS Automated Underreporter Program to             corrective actions do not address the conditions
address a large number of taxpayers each year          that gave rise to the recommendations.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Using Soft Notices to Address Reporting
                             Discrepancies Has Merit, but Cost and Benefit Questions Remain
                             (Audit # 201030043)

 This report presents the results of our review to determine whether the Soft Notice Initiative in
 the Automated Underreporter Program was effectively implemented and managed to provide
 Internal Revenue Service officials with reliable information for deciding whether the
 Soft Notice Initiative should be expanded, modified, or terminated. This audit was conducted as
 part of our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge
 of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                             Using Soft Notices to Address Reporting Discrepancies
                               Has Merit, but Cost and Benefit Questions Remain




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Overall, the Tax Year 2007 Soft Notice Pilot Test
          Was Adequately Planned, Implemented, and Managed ............................... Page 3
          The Time and Costs Associated With Soft Notices
          Need to Be Measured More Precisely .......................................................... Page 7
                    Recommendations 1 and 2: ................................................ Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Automated Underreporter Soft Notice Initiative
          Objectives and Measures .............................................................................. Page 18
          Appendix V – Example of a Computer Paragraph 2057 Notice ................... Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
        Using Soft Notices to Address Reporting Discrepancies
          Has Merit, but Cost and Benefit Questions Remain




                   Abbreviations

AUR          Automated Underreporter
CP           Computer Paragraph
DCI          Data Collection Instrument
FTE          Full-Time Equivalent
IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
TIGTA        Treasury Inspector General for Tax Administration
W&I          Wage and Investment
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain




                                            Background

One purpose of the Automated Underreporter Program (hereafter referred to as the AUR or the
AUR Program) is to resolve income discrepancies between the information taxpayers report to
the Internal Revenue Service (IRS) on tax returns and related information employers and
financial institutions provide the IRS on information returns. Once discrepancy cases are
identified, the IRS decides how many cases it believes it has sufficient resources to investigate
out of the total number identified.
When selected, AUR cases are distributed to seven IRS campuses1 where tax examiners
manually review each case. After analyzing the tax returns, tax examiners are sometimes able to
immediately resolve the discrepancies, in which case no further actions are taken. For the
remaining AUR cases, tax examiners may request additional information from taxpayers by
sending a Computer Paragraph (CP) 2000 notice.2
If the taxpayer provides supporting documentation and the tax examiner determines the
information resolves the discrepancy, the case is closed with no changes to the taxpayer’s
account. However, if the examiner determines the information does not resolve the discrepancy
and the taxpayer agrees with the examiner’s determination, the IRS will assess additional tax
based on the CP 2000 notice and close the case as agreed. When a taxpayer does not agree or
does not respond to the CP 2000 notice within the required time period, a Statutory Notice of
Deficiency3 will be issued to assess additional tax.
Because IRS resources cannot investigate all areas of noncompliance, including AUR
discrepancies, the IRS is increasingly using alternative approaches to resolve compliance issues
outside its traditional processes. In the AUR Program, where millions of discrepancy cases are
not investigated each year, the IRS is involved in a multiyear initiative (the Initiative) to
determine if soft notices can address AUR underreporting discrepancies that are not investigated
due to resource constraints.
The soft notices are called a CP 20574 and do not require that the taxpayer pay more tax, provide
documentation, or even respond to the IRS. Although the notice requests the taxpayer file an
amended tax return if appropriate, it is not required. Instead, the notices are designed to serve as


1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The CP 2000 notice is an IRS letter sent to a taxpayer to resolve discrepancies between income, credits, and/or
deductions claimed on a tax return and those reported by a third party, as well as to propose an additional tax
assessment.
3
  An IRS letter sent to taxpayers notifying them of an increase in the amount of taxes they owe.
4
  See Appendix V for an example of the CP 2057 notice.
                                                                                                           Page 1
                        Using Soft Notices to Address Reporting Discrepancies
                          Has Merit, but Cost and Benefit Questions Remain



an educational tool, encourage self-correction, and improve voluntary compliance. By
comparison, the CP 2000 is primarily focused on compliance and indicates that the IRS is
proposing a tax change and that the taxpayer may owe additional tax. If determined to be
successful, the Initiative could result in permanently using soft notices as an alternative approach
for addressing compliance issues among a large number of taxpayers each year who would not
ordinarily be contacted by the IRS due to resource constraints.
This review was the second phase of audit work conducted by the Treasury Inspector General for
Tax Administration (TIGTA) to determine whether the Initiative was effectively implemented
and managed to provide IRS officials with reliable information for deciding whether the
Initiative should be expanded, modified, or terminated. Audit work in the first phase5 was
focused on IRS planning activities for the Initiative while the second phase centered on how well
plans were implemented and managed and if reliable results were produced.
The review was performed at the IRS Wage and Investment (W&I) Division Headquarters in
Atlanta, Georgia, and IRS Small Business/Self-Employed (SB/SE) Division Headquarters in
New Carrollton, Maryland, during the period October 2010 through April 2011. Except for not
auditing the IRS Individual Master File6 that was used to validate the accuracy and reliability of
the data, we conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
  Plans for Evaluating the Use of Soft Notices in Addressing Underreporting Can Be Enhanced (Reference
Number 2010-30-089, dated August 27, 2010).
6
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 2
                        Using Soft Notices to Address Reporting Discrepancies
                          Has Merit, but Cost and Benefit Questions Remain




                                     Results of Review

Overall, the IRS did an adequate job planning, implementing, and managing the Initiative
through its first pilot test. However, the outcomes from the pilot test raised questions about the
costs incurred and benefits realized that the IRS needs to answer before deciding to use soft
notices on a much larger scale or permanent basis as an alternative approach for addressing
compliance issues in the AUR Program.

Overall, the Tax Year 2007 Soft Notice Pilot Test Was Adequately
Planned, Implemented, and Managed
One of the best practices for developing and implementing new business processes, or for
improving existing ones, is to establish an overall approach that contains detailed steps for
carrying out the various phases of an initiative. For example, the Government Accountability
Office developed and used a 20-step approach to evaluate earlier improvement initiatives in the
IRS SB/SE Division. The approach is based on its Business Process Reengineering Assessment
Guide7 and discussions with managers in private industry as well as in other Federal agencies.
According to the Government Accountability Office, the 20 steps included in its approach help
ensure potential obstacles are considered in planning, problems are pinpointed and addressed
through pilot testing, and results are evaluated accurately.
In the first phase of our work, we used the 20-step approach as criteria to assess how closely the
IRS team responsible for conducting the Initiative considered each of the recommended steps
and reported that, except for 2 areas, the team did a good job of planning the Initiative.
Importantly, the team developed an evaluation plan that contained 16 measures aligned within
6 objectives to assess the results from its first pilot test. Developing and documenting how to
evaluate results in the planning stage was an important step because it ensured the data necessary
for decisionmaking purposes would be available and collected once testing began.
Documentation the team provided to us during our review shows it conducted two pilot tests.
According to the Government Accountability Office’s 20-step approach, pilot testing is critical
because it provides opportunities to evaluate the soundness of the methods being used, make
necessary adjustments to correct potential problem areas, and obtain the support needed to make
program decisions such as whether to use soft notices in the AUR Program on a permanent basis.
The team’s first pilot was called the Tax Year8 2007 Soft Notice Pilot Test and involved sending


7
 GAO/AIMD-10.1.15, dated May 1997.
8
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 3
                            Using Soft Notices to Address Reporting Discrepancies
                              Has Merit, but Cost and Benefit Questions Remain



13,330 notices to taxpayers served by the W&I Division and 15,331 notices to taxpayers served
by the SB/SE Division.
To manage the resulting correspondence and inquiries from the 28,661 taxpayers who received
notices, as well as to collect and analyze data called for in the pilot’s evaluation plan, the team
developed and populated a standardized data collection instrument (DCI).9 They also
supplemented taxpayer response data with information from the AUR Program and the
Individual Master File. The AUR staff reviewed these data and concluded soft notices should be
used to expand compliance coverage and potentially improve recurring taxpayer behavior.
We validated the accuracy of the 16 measures (populated in the DCI and subsequently reported
to IRS executives in the team’s Fiscal Year 2010 Soft Notice Report)10 by following the team’s
methodology for measuring each outcome and then comparing each outcome to source
information. Figure 1 shows only minor differences (2 percent or less) for all but one of the
measures we validated to source information. Appendix IV contains a detailed description for
each of the 16 measures.
                      Figure 1: Tax Year 2007 Soft Notice Pilot Test Results

                                               SB/SE        W&I            IRS         TIGTA        Percentage
                   Measures                   Division     Division       Totals       Analysis     Difference

    OBJECTIVE 1 – CHANGE TAXPAYER BEHAVIOR
    1. Subsequent Year Recurring Discrepant
       Behavior                                5,273         3,293         8,566         8,578          <1.0
    2. Subsequent Year Recurring Similar
       Behavior                                1,603         1,139         2,742         2,742           0.0

    OBJECTIVE 2 – CORRECT CURRENT YEAR TAXPAYER BEHAVIOR
    3. 1040X11 – Fully Agreed With Soft
       Notice Issues                            818           965          1,783         1,609          9.812
    4. 1040X – Fully Addressed Soft Notice
       Issues                                  1,762         1,368         3,130         3,172           1.3
    5. 1040X – Partially Addressed Soft
       Notice Issues                            949           356          1,305         1,326           1.6


9
  The DCI is a web-based collection instrument which was used to collect data about responses from taxpayers who
received soft notices (Soft Notice Group) or CP 2000 notices (AUR Control Group) during the pilot.
10
   The report’s results were generated from the sample of taxpayers who were sent a soft notice due to underreported
income on their Tax Year 2007 tax return. This is a draft report, with the final report scheduled to be issued in
August 2011.
11
   Amended U.S. Individual Income Tax Return (Form 1040X).
12
   The percentage difference in the 1040X – Fully Agreed With Soft Notice measure can be attributed to the
different methodologies used by the TIGTA and the IRS. The TIGTA’s analysis included only the soft notices that
were mailed to taxpayers, whereas the IRS used the total of soft notices selected, which contained more records.
                                                                                                            Page 4
                              Using Soft Notices to Address Reporting Discrepancies
                                Has Merit, but Cost and Benefit Questions Remain




                                               SB/SE        W&I           IRS         TIGTA          Percentage
                    Measures                  Division     Division      Totals       Analysis       Difference

     OBJECTIVE 3 – LIMIT THE IMPACT ON IRS REVENUE
     6. Case Revenue Generated (average per
        case)                                   $182         $137          $161          $159           1.2

     7. Yield Versus Calculated Tax Change    ($22,223)    ($10,966)    ($16,987)     ($16,988)         <1.0
     8. Dollars Per Full-Time Equivalent
        (FTE)13                               $1,484,420   $791,543     $1,103,172    $1,077,265        2.3

     OBJECTIVE 4 – LIMIT THE IMPACT ON IRS RESOURCES

     9. Telephone Calls                         2,332        3,301        5,633         5,630           <1.0

 10. Screening Cost Savings (in hours)          3,129        1,713        4,842         4,842           0.0

 11. Letter Responses                           1,896         787         2,683         2,682           0.0

 12. 1040X Responses                            4,666        4,471        9,137         9,201           <1.0

 13. Undeliverables (notices returned)           75           130          205           205            0.0

     OBJECTIVE 5 – INCREASED TAXPAYER COVERAGE
 14. Productive Unit of Effort for Sending
     Soft Notices, Expanding Coverage14          1.61        2.04          3.65          3.70           1.4

     OBJECTIVE 6 – MINIMIZE TAXPAYER BURDEN

 15. No Change Rate                             15%          11%           13%           13%            0.0

 16. Preparers Required                         2,595         987         3,582         3,580           <1.0
 Source: Our analysis of the IRS’s draft Fiscal Year 2010 Soft Notice Report, dated July 30, 2010.

To add perspective and meaning to the outcomes from the first pilot, the team created two
controls groups that contained similar discrepancy characteristics as the soft notice cases.
Taxpayers in the first control group were treated as regular AUR Program cases and were
considered for issuance of a CP 2000. Those in the second group, the Do Nothing Group, went
untreated, meaning the IRS made no contact with the taxpayers concerning the income
discrepancies. The specific outcomes achieved are categorized below by objective.


13
   To compute the TIGTA total for the Dollars Per FTE measure, we divided the total case revenue by 4.23, which is
the total number of FTEs including those for Submission Processing staff to process amended returns. See
Appendix I for details. An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the
number of compensable days in a particular fiscal year. For Fiscal Year 2009, 1 FTE was equal to 2,088 staff hours.
For Fiscal Year 2010, 1 FTE is equal to 2,088 staff hours.
14
   This analysis does not include the time and resources incurred by Submission Processing staff to process amended
tax returns.
                                                                                                           Page 5
                     Using Soft Notices to Address Reporting Discrepancies
                       Has Merit, but Cost and Benefit Questions Remain



 1.    Change Taxpayer Behavior. Regardless of whether a soft notice, a CP 2000, or no
       notice was issued, approximately 30 percent of taxpayers subsequently filed an amended
       tax return to address a potential discrepancy that was identified through third-party
       information reporting.
 2.    Correct Current Year Taxpayer Behavior. A regular AUR Program case was far more
       likely to result in a taxpayer filing an amended tax return in the current year than a soft
       notice case. The 28,661 soft notices issued resulted in 9,201 taxpayers (32 percent)
       voluntarily changing their tax return to address the discrepancies identified in the soft
       notices. In contrast, the CP 2000 notices issued to 27,135 taxpayers in the AUR Control
       Group resulted in adjustments to the accounts of 17,830 taxpayers (66 percent).
 3.    Limit the Impact on IRS Revenue. Soft notice cases generated significantly less
       revenue than regular AUR Control Group cases. On average, each AUR Control Group
       case generated $729 more in additional taxes than a soft notice case. Each IRS employee
       assigned to work AUR Program cases could be expected to generate 106 percent more
       revenue annually than an employee working soft notice cases.
 4.    Limit the Impact on IRS Resources. Unlike the manual review of CP 2000 notices,
       soft notices were not reviewed before they were issued. As a result, the team estimated
       the issuance of the 28,661 soft notices saved 4,842 labor hours, or about 2.33 FTEs. The
       purpose of the manual review of CP 2000 notices is to eliminate erroneous discrepancies.
       A discrepancy, for example, can be identified by IRS computers, but a manual review
       may identify something the computer could not, such as an income item mistakenly
       reported on the incorrect line of a tax return.
 5.    Increased Taxpayer Coverage. Soft notices provide the IRS with a less expensive way
       to expand its compliance coverage than CP 2000 notices. In terms of labor, the manual
       review and administration of 27,135 CP 2000 notices required 11 FTEs, each of whom
       worked about 1.2 cases per hour. In contrast, the 28,661 soft notices required about
       4.23 FTEs, each of whom worked about 3.3 cases per hour.
 6.    Minimize Taxpayer Burden. A high no-change rate means a significant amount of
       resources are being devoted to unproductive notices and compliant taxpayers are being
       unnecessarily burdened by the notices. Neither the TIGTA nor IRS officials know what
       the actual no-change rate should be for soft notices because the normal screening
       procedures were not applied. However, the IRS determined that no tax change was
       justified for 13 percent of the taxpayers who responded to the soft notices, while
       2.26 percent of the tax liabilities of AUR Program cases were not changed.
In considering the significance of the outcomes from the Tax Year 2007 Soft Notice Pilot Test
and their applicability to deciding the future use of soft notices in the AUR Program, it is
important to recognize that this test was the first of two soft notice pilot tests. Based on the
outcomes of the Tax Year 2007 Soft Notice Pilot Test, the team made adjustments to improve

                                                                                            Page 6
                     Using Soft Notices to Address Reporting Discrepancies
                       Has Merit, but Cost and Benefit Questions Remain



how to best use soft notices as an alternative approach for addressing compliance issues in the
AUR Program. Consequently, the outcomes from the later pilot may better achieve the stated
objectives for the Initiative and, if so, provide additional support data for making an informed
decision about whether soft notices should be incorporated as an alternative compliance
treatment on a permanent basis.
It is also important to recognize that the methodology used to measure the burden the soft notices
imposed on taxpayers was based solely on the correspondence received from taxpayers. Because
nearly 50 percent (13,991 of 28,661) of taxpayers issued soft notices did not respond, the
taxpayer burden measures are not providing as complete of a picture as they could because there
is no information on the amount of time or money these taxpayers may have spent dealing with
the notices.

The Time and Costs Associated With Soft Notices Need to Be
Measured More Precisely
Improving service to taxpayers is one of the highest priorities for the IRS. Guided by its
strategic plan, the IRS’s vision is to make it easier for taxpayers to fulfill their civic
responsibility to pay taxes by providing them with world-class service, taking proactive steps to
better understand issues from a taxpayer’s perspective, and reducing taxpayer burden.
Consequently, it will be important for the IRS to understand and minimize the time and costs that
taxpayers spend dealing with soft notices to increase the likelihood of achieving its vision for
improving service to taxpayers.
One of the initial steps that needs to be taken in understanding and minimizing taxpayer burden
is assessing the amount of time and money a particular activity imposes. However, as IRS
researchers have reported, measuring burden is inherently challenging because it can mean
different things to different types of taxpayers (e.g., individuals versus businesses) depending
upon whether a taxpayer is seeking advice about a particular tax issue, preparing a return, or
dealing with an IRS audit or notice.
To estimate the costs and time taxpayers spent dealing with soft notices, the team used two
measures. The first measure involved counting the number of taxpayer accounts marked as
having used a paid preparer in the DCI. This measure reasonably assumes these taxpayers
incurred a fee for the service of having their returns amended by a tax preparer. The second
measure involved counting the number of telephone calls, letters, or amended tax returns
recorded in the DCI from taxpayers who indicated no adjustment was warranted to their tax
return. This measure reasonably assumes that the time spent by the taxpayers reviewing records
and responding to IRS was unnecessary.
While the two measures have merit for determining the burden imposed on taxpayers who
responded by filing an amended tax return or contacting the IRS by letter or telephone, they do
not provide a complete picture because the burden on the 13,991 taxpayers who chose not to

                                                                                            Page 7
                     Using Soft Notices to Address Reporting Discrepancies
                       Has Merit, but Cost and Benefit Questions Remain



respond to the soft notice remains unknown and could be substantial. To illustrate this point, in
Fiscal Year 2009, the AUR Program closed approximately 4.5 million cases. The screening
process resolved 18.4 percent of the computer-identified discrepancy cases without contacting
taxpayers. As a result, the IRS avoided unnecessarily burdening approximately 828,000
taxpayers with a CP 2000 notice that would have likely resulted in no change being made to the
taxpayer’s account. Because the soft notice cases were not manually reviewed before they were
issued, but were selected from the same population as the AUR Program cases, it is reasonable to
assume that 18.4 percent (2,574) of the 13,991 taxpayers who did not respond may have had to
deal with a notice that should not have been issued. It is also reasonable to assume that some
percentage of the nonrespondents sought advice from a tax preparer before deciding not to
respond. Our analysis shows that 9,182 (66 percent) of the 13,991 taxpayers who did not
respond to the soft notice used a paid tax preparer to complete their Tax Year 2007 income tax
return.

The net benefit of using soft notices as an alternative approach for addressing
compliance issues in the AUR Program needs to be determined
Our August 2010 report included our evaluation of the team’s planning efforts for the Initiative
and identified two recommendations that required corrective action by the IRS. The first
recommendation involved the IRS defining what it would consider a success within each of the
16 measureable items and/or how much weight the various measures will have in determining
the overall success of the Initiative. The second recommendation entailed the IRS ensuring that
all costs it has or will incur are quantified and used in determining the net benefit of
implementing soft notices as an alternative approach for addressing compliance issues in the
AUR Program.
The IRS committed to taking corrective actions in response to the first recommendation by
January 2012. However, the IRS did not commit to taking specific actions or establishing a
specific date defining how or when it will ensure all costs are quantified and used in determining
the net benefit from using soft notices as an alternative approach for addressing compliance
issues in the AUR Program. As we reported in August 2010, there are costs that have yet to be
fully considered, such as the expenses associated with a contractor who was involved in the
design, development, documentation, execution, and assessment activities of the Initiative.
By ensuring all benefits and costs are captured and analyzed, the team can establish an important
control for assuring IRS senior executives that key issues were considered before recommending
to use soft notices on a much larger scale or permanent basis as an alternative approach for
addressing compliance issues in the AUR Program. Moreover, reliable cost-benefit information
is a critical component of a sound assessment methodology and may help alleviate concerns that
could be raised about why the IRS risks burdening taxpayers and incurring the costs of sending
soft notices that result in little or no tax revenue or impact on taxpayer behavior.


                                                                                           Page 8
                     Using Soft Notices to Address Reporting Discrepancies
                       Has Merit, but Cost and Benefit Questions Remain



Recommendations
The Director, Campus Compliance Services, SB/SE Division, and the Director, Compliance,
W&I Division, should coordinate actions to develop and implement a plan:
Recommendation 1: To obtain a more complete picture of the time and costs taxpayers are
spending on soft notices.
       Management’s Response: IRS officials agreed with this recommendation and will
       continue to solicit feedback on the CP 2057 notices from taxpayer responses, the Office
       of Taxpayer Communication, and IRS Advisory Council to improve their processes.
       Office of Audit Comment: Although IRS officials agreed with the recommendation,
       their corrective actions do not address the condition that gave rise to the recommendation.
       Specifically, the corrective actions do not include developing and implementing a plan
       that will measure the time and costs the notices are imposing on the taxpayers who are
       not responding to the notices. As indicated in the report, these could be substantial and
       taking such steps would provide the IRS with an opportunity to reinforce its commitment
       to better understand issues from the taxpayer’s perspective and reduce taxpayer burden
Recommendation 2: For determining the net benefit of using soft notices in the AUR
Program as an alternative approach for addressing compliance issues.
       Management’s Response: IRS officials agreed with this recommendation and stated
       that they have determined that soft notices are beneficial as a self correction method and
       have educational benefit. They will also continue to evaluate the net benefits derived
       from the use of soft notices.
       Office of Audit Comment: Although IRS officials agreed with the recommendation,
       their corrective actions do not address the condition that gave rise to the recommendation.
       Specifically, the corrective actions do not include developing and implementing a plan
       that will ensure all costs are quantified and used in determining the net benefit from using
       soft notices as an alternative approach for addressing compliance issues in the AUR
       Program. As indicated in the report, reliable cost-benefit information is a critical
       component of a sound assessment methodology and may help alleviate concerns that
       could be raised about why the IRS risks burdening taxpayers and incurring the costs of
       sending soft notices that result in little or no tax revenue or impact on taxpayer behavior.




                                                                                            Page 9
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the AUR Program Soft Notice
Initiative (the Initiative) was effectively implemented and managed to provide IRS officials with
reliable information for deciding whether the Initiative should be expanded, modified, or
terminated. As part of the review, we relied on databases provided to us by the IRS and did not
audit the source systems. Unless otherwise noted, our limited tests of the reliability of data
obtained from the IRS did not identify any errors. We tested the reliability of the data by
scanning the data received for blank, incomplete, illogical, or improper data. We also performed
reviews of amended tax returns to determine the accuracy of information recorded in the DCI.
To accomplish our overall objective, we:
I.      Identified the methodology used to measure the results of the Initiative.
        A. Secured a copy of the draft Fiscal Year 2010 Soft Notice Report, which provides final
           results and conclusions from the Tax Year1 2007 Soft Notice Pilot Test as well as
           preliminary findings from Tax Year 2008.
        B. Interviewed W&I Division’s AUR Program management and obtained the
           methodologies for each of the 16 measures used to evaluate the Tax Year 2007 Soft
           Notice Pilot Test.
        C. Secured an extract of the DCIs for Tax Years 2007 and 2008 that were used to
           support the results in the draft Fiscal Year 2010 Soft Notice Report.
        D. Used the information gathered in Steps I. A., B., and C. to identify any changes to
           case selection made for subsequent years’ tests.
II.     Determined if the IRS has effectively measured whether soft notice treatment has
        changed taxpayer behavior.
        A. Verified that the preliminary measures supplied to us during the previous Phase I
           review2 for the following objectives were still valid.
             •   Change Taxpayer Behavior.


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  Plans for Evaluating the Use of Soft Notices in Addressing Underreporting Can Be Enhanced (Reference
Number 2010-30-089, dated August 27, 2010).
                                                                                                         Page 10
                        Using Soft Notices to Address Reporting Discrepancies
                          Has Merit, but Cost and Benefit Questions Remain



            •   Correct Current Year Taxpayer Behavior.
        B. Analyzed the accuracy of the taxpayer behavior measures and compared our figures
           to the results in the draft Fiscal Year 2010 Soft Notice Report.3
            1. For the Subsequent Year Recurring Discrepant Behavior measure, obtained the
               AUR repeater file4 (17,054,422 records) for Tax Year 2008 from AUR Program
               management and matched the records to Tax Year 2007 samples for the Soft
               Notice Group (28,661 taxpayers), the AUR Control Group (30,8195 taxpayers),
               and the Do Nothing Group (30,760 taxpayers) and identified the number and
               percentage of those taxpayers who repeated underreporting behavior in Tax
               Year 2008. [(Soft Notice Group – 8,578 (30 percent); AUR Control Group –
               8,892 (29 percent); Do Nothing Group – 8,502 (28 percent)].
                Note: The pilot team created two control groups that contained similar
                discrepancy characteristics as the group that received the soft notices. Taxpayers
                in the AUR Control Group were treated as regular AUR Program cases and were
                considered for issuance of a CP 2000. Those in the Do Nothing Group went
                untreated, meaning the IRS made no contact with the taxpayers concerning the
                income discrepancies.
            2. For the Subsequent Year Recurring Similar Behavior measure, matched the AUR
               repeater file for Tax Year 2008 to Tax Year 2007 samples for the Soft Notice
               Group, the AUR Control Group, and the Do Nothing Group and identified the
               number of those taxpayers who repeated underreporting behavior in the same
               AUR category in Tax Year 2008. [Soft Notice Group – 2,742 (10 percent); AUR
               Control Group – 2,866 (9 percent); Do Nothing Group – 3,121 (10 percent)].
            3. For the 1040X6 – Fully Agreed With Soft Notice Issues measure, queried the DCI
               data to identify records marked as fully agreed. We also matched
               17,704 taxpayers who received a soft notice but had no record in the DCI against
               the Individual Master File7 to identify 1,609 individuals who had filed an
               amended tax return fully agreeing with the income discrepancies. In addition, we
               compared those results to the 27,135 notices sent to taxpayers in the AUR Control
               Group, which resulted in 11,224 assessments that fully agreed with the income
               discrepancies.

3
  See Appendix IV for a detailed description of the 16 measures.
4
  The AUR repeater file identifies recent trends in underreporting behavior for all taxpayers with income
discrepancies.
5
  The 30,819 taxpayers selected for the AUR Control Group included 27,135 who were sent a CP2000 notice and
3,684 who the IRS closed without contact.
6
  Amended U.S. Individual Tax Return (Form 1040X).
7
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                     Page 11
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain



             4. For the 1040X – Fully Addressed Soft Notice Issues measure, queried the DCI
                data and identified 3,172 records marked as fully addressed.
             5. For the 1040X – Partially Addressed Soft Notice Issues measure, queried the DCI
                data and identified 1,326 records marked as partially addressed.
III.    Determined if the IRS effectively measured the impact of the Soft Notice Initiative on
        revenues and costs.
        A. Verified that the preliminary measures supplied to us during the previous Phase I
           review for the following objectives were still valid.
             •   Limit the Impact on IRS Revenue.
             •   Limit the Impact on IRS Resources.
             •   Increased Taxpayer Coverage.
        B. Analyzed the accuracy of the measures used to determine the impact of soft notices
           on IRS revenues and compared our figures to the results in the draft Fiscal Year 2010
           Soft Notice Report.
             1. For the Case Revenue Generated measure, we:
                 a. Queried the DCI data8 to total the net balance due and refund amounts for the
                    Soft Notice Group for the W&I Division ($854,398) and the SB/SE Division
                    ($1,815,942).
                 b. Identified the taxpayers receiving soft notices who did not have a record in the
                    DCI (8,530 for the W&I Division and 9,174 for the SB/SE Division) and
                    matched them to the Individual Master File to identify and total all tax
                    adjustment transactions occurring at least 4 weeks after the issuance of the
                    notices ($914,176 for the W&I Division and $972,317 for the SB/SE
                    Division).
                 c. Combined the DCI and Individual Master File totals to calculate the total case
                    revenue generated of $4,556,833 and computed the average per case by
                    dividing it by the 28,661 notices issued.
                 d. Obtained case revenue results for the AUR Control Group by matching the
                    27,135 records with CP 2000 notices sent to the Individual Master File to
                    calculate total revenue of $24,084,251 for 17,620 accounts with adjustments.



8
 The 29,528 records in the DCI include activity related to responses from taxpayers for both the Soft Notice Group
and the AUR Control Group.
                                                                                                          Page 12
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain



             2. For the Yield Versus Calculated Tax Change measure, used the case revenue data
                gathered in Step III.B.1 to identify the total tax change for the entire Soft Notice
                Group and compared it to the expected tax change identified on the AUR case
                selection database provided by the AUR Program. For the expected tax change,
                we computed the total expected tax change for the 28,661 cases ($491,452,135)
                using the DCI and AUR case selection database data provided by IRS. We then
                computed the difference between the expected tax change and actual revenue
                generated ($4,556,833), which is $486,895,302, and computed the average Yield
                Versus Calculated Tax Change by dividing by 28,661 ($16,988). We validated
                the accuracy of the case selection database by contacting an AUR Program
                analyst for confirmation.
             3. For the Dollars Per FTE9 measure, obtained statistical data for time applied by
                employees to Soft Notice Group cases from Work Planning and Control10 reports.
                We then combined those figures with IRS-provided FTE figures for processing
                amended tax returns and computed the total FTE staff years for working soft
                notices (4.23). We then divided the total case revenue dollars ($4,556,833) by the
                4.23 FTEs to compute the $1,077,265 per FTE.
        C. Analyzed the accuracy of the measures used to determine the impact of soft notices
           on IRS resources and compared our figures to the results in the draft Fiscal Year 2010
           Soft Notice Report.
             1. For the Screening Cost Savings measure, obtained the AUR Program’s standard
                historical screening rates for the W&I Division (7.78 cases per hour) and the
                SB/SE Division (4.9 cases per hour). We then divided the total number of soft
                notices mailed (13,330 for the W&I Division and 15,331 for the SB/SE Division)
                by the historical screening rate for each division and combined them to compute
                the 4,842 screening hours saved.
             2. For the Telephone Calls measure, queried the DCI data for the Soft Notice Group
                and counted the 5,630 records with telephone calls.
             3. For the Letter Responses measure, queried the DCI data for the Soft Notice Group
                and counted the 2,682 records where letters had been received.
             4. For the 1040X Responses measure, queried the DCI data for the Soft Notice
                Group and counted the 4,616 records where amended tax returns had been
                received. We also matched the 24,045 Soft Notice Group records where no


9
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2009, 1 FTE was equal to 2,088 staff hours. For Fiscal Year 2010, 1 FTE is
equal to 2,088 staff hours.
10
   A management system designed to relate workload to staffing levels.
                                                                                                          Page 13
                   Using Soft Notices to Address Reporting Discrepancies
                     Has Merit, but Cost and Benefit Questions Remain



             amended tax return was recorded in the DCI to Individual Master File data to
             identify an additional 4,585 amended tax returns for the Soft Notice Group.
         5. For the Undeliverables measure, queried the DCI data for the Soft Notice Group
            and counted the 205 records where the soft notice was returned undeliverable.
      D. Analyzed the accuracy of the measure used to determine the impact that soft notices
         have on increasing taxpayer coverage and compared our figures to the results in the
         draft Fiscal Year 2010 Soft Notice Report.
         1. For the Productive Unit of Effort for Sending Soft Notices, Expanding Coverage
            measure, obtained Work Planning and Control data and the AUR Program’s
            process for computing the measure and recomputed total FTE staff days needed
            by the AUR Program to work soft notice responses and telephone calls
            (2.04 FTEs for the W&I Division and 1.66 FTEs for the SB/SE Division). This
            measure does not include the FTEs for the processing of amended tax returns.
         2. Computed Dollars Per FTE for the AUR Control Group by dividing the
            $24,084,251 in revenue by 10.854 FTEs we computed that was needed for
            processing, which resulted in $2,218,929 per FTE. We then divided this figure by
            the $1,077,265 per Soft Notice FTE to determine that the AUR Control Group
            generated 106 percent more dollars per FTE than the Soft Notice Group.
IV.   Determined if the IRS effectively measured the impact of the Initiative on taxpayer
      burden.
      A. Verified that the preliminary measures supplied to us during the previous Phase I
         review for the “Minimize Taxpayer Burden” objective were still valid. We identified
         that a Screenout Rate measure originally planned is no longer being used as a
         measure because there was no screening done on the soft notices.
      B. Analyzed the accuracy of the measures used to determine the impact that soft notices
         had on taxpayer burden and compared our figures to the results in the draft Fiscal
         Year 2010 Soft Notice Report .
         1. For the No-Change Rate measure, queried the DCI data for the Soft Notice Group
            (28,661 taxpayers) and counted 3,730 (13 percent) taxpayers that justifiably had
            no tax change made to their account.
         2. For the Preparers Required measure, queried the DCI data for the Soft Notice
            Group and counted the 3,580 taxpayers identified where a preparer was used.




                                                                                       Page 14
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain



             3. We matched the 13,991 soft notice taxpayers who did not respond to the soft
                notice against tax return data on the TIGTA Data Center Warehouse11 and
                identified that 9,182 (66 percent) of these taxpayers used a paid preparer to file
                their original 2007 tax return.
V.       Determined if the measures were sufficient to provide an accurate evaluation of the
         pilot’s results to IRS executives. We discussed the results of our analysis with AUR
         Program management and obtained agreement to the facts.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s procedures for measuring
revenues and costs for the Initiative to determine its cost effectiveness. We evaluated these
controls by interviewing management and analyzing IRS data by comparing our analysis of IRS
databases to the results of the draft Fiscal Year 2010 Soft Notice Report measures.




11
  A centralized storage facility used by the TIGTA to maintain critical historical data extracted from IRS databases
needed for analysis during audits and investigations.
                                                                                                           Page 15
                    Using Soft Notices to Address Reporting Discrepancies
                      Has Merit, but Cost and Benefit Questions Remain



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Alan Lund, Audit Manager
Matthew Schimmel, Lead Auditor
Carole Connolly, Senior Auditor
Sharon Summers, Senior Auditor
William Tran, Senior Auditor




                                                                                      Page 16
                    Using Soft Notices to Address Reporting Discrepancies
                      Has Merit, but Cost and Benefit Questions Remain



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 17
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain



                                                                                               Appendix IV

      Automated Underreporter Soft Notice Initiative
               Objectives and Measures

    AUR OBJECTIVE                                                MEASURE

                                1. Subsequent Year Recurring Discrepant Behavior – The number
                                of taxpayers who failed to correctly report third-party income in the
     Change Taxpayer            following year.
        Behavior
                                2. Subsequent Year Recurring Similar Behavior – The number of
                                taxpayers who failed to correctly report the same type of third-party
                                income in the following year.
                                3. 1040X1 – Fully Agreed With Soft Notice Issues – The taxpayer
                                filed an amended tax return and the tax change was the same as
                                estimated by the IRS in the DCI.

    Correct Current Year        4. 1040X – Fully Addressed Soft Notice Issues – The taxpayer
     Taxpayer Behavior          filed an amended tax return and addressed the underreported
                                income. However, the tax owed does not match the IRS’s
                                estimates.
                                5. 1040X – Partially Addressed Soft Notice Issues – The taxpayer
                                only addressed some of the underreported income in the soft notice.
                                6. Case Revenue Generated – The revenue generated per soft
                                notice mailed.

      Limit the Impact          7. Yield Versus Calculated Tax Change – The amount of tax
      on IRS Revenue            change expected by the IRS compared to what was on the amended
                                tax return.
                                8. Dollars Per FTE2 – Computation of revenue generated per 1 staff
                                year.

1
 Amended U.S. Individual Tax Return (Form 1040X).
2
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2009, 1 FTE was equal to 2,088 staff hours. For Fiscal Year 2010, 1 FTE was
equal to 2,088 staff hours.
                                                                                                         Page 18
                         Using Soft Notices to Address Reporting Discrepancies
                           Has Merit, but Cost and Benefit Questions Remain




    AUR OBJECTIVE                                                MEASURE

                                9. Telephone Calls – Count of calls includes multiple telephone
                                calls from the same taxpayer.
                                10. Screening Cost Savings – Number of staff hours saved by not
                                having to manually screen all the cases prior to issuing soft notices.
      Limit Impact on           11. Letter Responses – Count of letters received from taxpayers.
      IRS Resources
                                12. 1040X Responses – Count of Tax Year3 2007 amended tax
                                returns received from taxpayers in the DCI and Individual Master
                                File.
                                13. Undeliverables – Count of notices returned by the United States
                                Postal Service that could not be delivered.
                                14. Productive Unit of Effort for Sending Soft Notices, Expanding
        Increased               Coverage – Resources expended (in staff years) to handling
    Taxpayer Coverage           telephone calls, letter responses, and amended tax return responses
                                for the soft notice sample.
                                15. No Change Rate – The percentage of cases where the
                                taxpayer’s original tax return was correct and no changes needed to
       Minimize                 be made to the taxpayer’s account.
    Taxpayer Burden
                                16. Preparers Required – The percentage of taxpayers who used a
                                paid preparer to file an amended tax return.
Source: Our definitions of measures in the IRS’s draft Fiscal Year 2010 Soft Notice Report, dated, July 30, 2010.




3
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 19
                            Using Soft Notices to Address Reporting Discrepancies
                              Has Merit, but Cost and Benefit Questions Remain



                                                                                                    Appendix V

        Example of a Computer Paragraph 2057 Notice1




1
    All dates, monetary, and taxpayer identifying information contained in this example are hypothetical.
                                                                                                            Page 20
Using Soft Notices to Address Reporting Discrepancies
  Has Merit, but Cost and Benefit Questions Remain




                                                    Page 21
               Using Soft Notices to Address Reporting Discrepancies
                 Has Merit, but Cost and Benefit Questions Remain




Source: IRS W&I Division web site.




                                                                   Page 22
      Using Soft Notices to Address Reporting Discrepancies
        Has Merit, but Cost and Benefit Questions Remain



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 23
Using Soft Notices to Address Reporting Discrepancies
  Has Merit, but Cost and Benefit Questions Remain




                                                    Page 24
Using Soft Notices to Address Reporting Discrepancies
  Has Merit, but Cost and Benefit Questions Remain




                                                    Page 25
Using Soft Notices to Address Reporting Discrepancies
  Has Merit, but Cost and Benefit Questions Remain




                                                    Page 26
